CASE NO.

"2.° ^ (*$

IN THE UNITED STATES SUPREME COURT
PETITION FOR A WRIT OF CERTIORARI
Walter Reinhaus, pro se Appellant,
24 West McMicken Av Cincinnati, Ohio 45202,

FILED
JUL 1 “i 2020

513.241.3855, reinhaus@yahoo.com
V.

Zoning Board of Appeals, City of Cincinnati, Appellee
Paula Boggs Muething, City Solicitor by Kevin M.
Tidd, Assistant City Solicitor, 801 Plum Street, City
Hall, Rm. 214, Cincinnati OH 45202, 513.352.3334,
kevin.tidd@cincinnati-oh.gov
On Appeal from the Court of Appeals, Ohio First
District, Hamilton County, Appeal No. C180616, Trial
No. A1801386
After the Supreme Court of Ohio declined to accept
jurisdiction, Case No. 2020-0160.
1

QUESTIONS FOR REVIEW
1. Did the court fail a constitutional right to due
process when the City: failed to honor previous
Historic Conservation Board (HCB) determinations;
failed to adhere to the limited scope of the guidelines;
and, failed to comply with their own rules of order?
2. Was the court a neutral arbiter, repeating
conclusions based on erroneous facts demonstrating a
prima facie ‘congruence and proportionality’ approach
disproportionate to their effects?
3. Did the court fail to recognize the City caused a
violation of appellant beneficiaries’ civil rights by:
erasing their participation; cancelling their wealth­
building opportunity; and, disregarding community derived social goals in favor of a regressive traditional
preservation practice focused on achieving an
engineered gentrification instead?

2

DIRECTLY RELATED COURT PROCEEDINGS
Supreme Court of Ohio, Case No. 2020-0160, Walter
Reinhaus v. Zoning Board of Appeals, City of
Cincinnati, Entered Apr 14, 2020.
Court of Appeals First Appellate District of Ohio,
Case No. C-180616, Walter Reinhaus vs. Zoning
Board of Appeals of the City of Cincinnati, Entered
December 20, 2019.
Court of Common Pleas Hamilton County, Ohio, Case
No. A1801386, Walter Reinhaus v. Zoning Board of
Appeals of the City of Cincinnati, et al, Entry on
Objection to Magistrate’s Decision, Entered October
30, 2018.
Court of Common Pleas Hamilton County, Ohio, Case
No. A1801386, Walter Reinhaus vs. Zoning Board of
Appeals of the City of Cincinnati, Magistrate’s
Decision, Entered July 27, 2018.

3

''X

TABLE OF CONTENTS
QUESTIONS FOR REVIEW 2
DIRECTLY RELATED COURT PROCEEDINGS 3
TABLE OF CITED AUTHORITIES 5
CITATIONS OF COURT AND AGENCY REPORTS 8
BASIS FOR JURISDICTION 9
CONSTITUTIONAL PROVISIONS, COMMON
STATUTES 10
CASE FACTS MATERIAL TO QUESTIONS 10
AMPLIFIED REASONS FOR THE WRIT: 12
Narrative 12, History 18, Argument 25 (Fundamental
Character 26, Heavy Burden 29, Variance by Staff
33), Compelling Issues 35, Reviewing the Record 42,
Conclusion 50
APPENDIX: (separate volume) Reviewing the Record

4

TABLE OF CITED AUTHORITIES
McKee v. Akron (1964), 176 Ohio St. 282, Id. At 285,
27 0.0. 2d at 198, 199 N.E.2d at 594, and 1st English
Evangelical Lutheran Church of Glendale v. Cty of
Los Angeles, CA (1987), 482 U.S. 304, a taking when
there was a planned use before ordinance passage.1
Athenry Shoppers v. Dublin Planning, #22, 08AP
742, 2009-0hio-2230: “the trial court simply focused
on evidence that it found persuasive and effectively
substituted its judgment”: the appeals court and the
trial court did not consider all of the evidence. 2
Eastley, 132 Ohio St.3d 328, 2012-Ohio-2179, 972
N.E.2d 517, at #20; Thompkins, 78 Ohio St.3d at 387,
678 N.E.2d 541: “the finder of fact lost its way,
thereby creating a manifest miscarriage of justice”:

1 Submission, Comments in Response to 10/9/17 Hearing, p. 83.
2 Crt of Appeals, OH 1st Dist, Hamilton Cty, Amended Brief, p.2.
5

the courts lost their way considering the evidence, a
manifest miscarriage of justice.3
Miamisburg v. Wood (2000), 137 Ohio App.3d 623,
625, 739 N.E.2d 410: “When a statute or ordinance
conveys a meaning which is clear, unequivocal, and
definite, at that point the interpretation effort is at an
end, and the statute must be applied accordingly.”
Meeks v. Papadopulos (1980), 62 Ohio St.2d 187, 190,
404 N.E.2d 159; Provident Bank v. Wood (1973), 36
Ohio St.2d 101, 105-106, 304 N.E.2d 378. “In such a
case, there is no need to apply rules of construction”.
Cline v. Ohio Bur. Of Motor Vehicles (1991), 61 Ohio
St.3d 93, 96, 573 N.E.2d 77.. “Additionally,., courts
must strictly construe restrictions on the use of real
property in favor of the property owner”. See, e.g.
Mishr v.Poland Bd. Of Zoning Appeals (1996), 76

3 Ibid
6

Ohio St.3d 238, 241, 667 N.E.2d 365; Saunders v.
Clark Cty. Zoning Dept. (1981), 66 Ohio St.2d 259,
261, 421 N.E.2d 152:
“Zoning restrictions are in derogation of the common
law and deprive a property owner of certain uses of
his land to which he would otherwise be lawfully
entitled. Therefore, such resolutions are ordinarily
construed in favor of the property owner. Restrictions
on the use of real property by the ordinance,
resolution or statute must be strictly construed, and
the scope of the restrictions cannot be extended to
include limitations not clearly prescribed” Taylor v.
Circleville, Pickaway 03CA8 2003-0hio-7166, pp. 4-6.
The courts failed to strictly construe the scope of
restrictions within the guidelines, failed to

7

acknowledge their plain meaning, and failed to
ordinarily weigh the resolution.4
CITATIONS OF COURT AND AGENCY REPORTS
The Supreme Court of Ohio: Jurisdiction declined.
Court of Appeals First District of Ohio Hamilton
County, Ohio: Assignment of error overruled, trial
court’s judgment affirmed.
Court of Common Pleas Hamilton County, Ohio:
Magistrate’s Decision adopted in full without
modification.
Court of Common Pleas Hamilton County, Ohio:
Decision of the Zoning Board of Appeals of the City of
Cincinnati is affirmed.
Zoning Board of Appeals City of Cincinnati Case No.
Z-4026-2017: HCB decision is affirmed.

4 Ibid

8

HCB, COA-2017060: Denied in part, approved in part.
HCB: various permits approved, including the new
openings, based on the HCB approved Preliminary
Design Review (PDR) 2003-12.
HCB: approved PDR with revisions, July 28, 2003.
BASIS FOR JURISDICTION
This petition for a writ of certiorari seeks review of a
judgment of the Court of Appeals First Appellate
District of Ohio dated Dec 20, 2019, with April 14,
2020 as the entry date for the Supreme Court of
Ohio’s declination to accept jurisdiction.
A statutory provision conferring jurisdiction: Rules of
the Supreme Court of the United States, Part III,
Rule 10 (c), effective 7/1/2019.
The Rule 29.4 notifications have been made.

9

CONSTITUTIONAL PROVISIONS, COMMON
STATUTES
The United States Fifth Amendment reads: No person
shall... be deprived of life, liberty, or property,
without due process of law.
The Fourteenth Amendment says: ...nor shall any
State deprive any person of life, liberty, or property,
without due process of law.
The plain meaning rule: the plain meaning of a
phrase exists beyond any legal assignment of
significance; although commanding great authority, a
judge cannot alter its plain meaning, eveh though
doing so may assist arriving at a preferred verdict.
Don’t base conclusions only on a conclusory opinion.
CASE FACTS MATERIAL TO QUESTIONS
Stage when federal questions were raised: In a public
information request made to the City of Cincinnati
10

while preparing an application to the HCB; in
submitted comments to the HCB and ZBA; and, in
briefs for Common Pleas and Appeals courts.
Manner of their raising: In submitted writings.
They were passed on to court: in a forwarded record.
Quotations from the record showing timeliness:
The HCB has failed to reasonably respond to: the
previous good work of the HCB; suggested
corrections to Staff Reports; Staff’s
misapplication of the guidelines; and, summary
conclusions including a pro tanto taking.
Reasons for Appeal: Facts didn’t support
determination (8); Procedural Errors (5); and
Evidential and Interpretational Errors (10).5

5 Applicant’s Appeal to the Zoning Board of Appeals, Plea,
11/28/17, p.x.
11

The Supreme Court has recently ruled about
adverse impact but hasn’t considered how
historic districting provides the tools that are
misused to repeat engineered gentrification..6
AMPLIFIED REASONS FOR WRIT ALLOWANCE
Narrative: The U.S. Constitution’s protection of
property rights are as strong as due process, civil
rights, and should not quickly be given away or easily
taken. In Cincinnati’s Over-the-Rhine (OTR)
neighborhood, a large diverse group of residents and
stakeholders updated our neighborhood plan and
established a historic district with extraordinary
assistance from the City of Cincinnati Planning Staff
over a year, during civil unrest, identifying social
goals benefiting existing, mostly African American

6 In the Supreme Court of Ohio, Notice of Appeal of Appellant,
pp.4-5.
12

residents. Our community had unsuccessfully fought
historic designation for the southern half years
earlier, due to fears of gentrification. As a co-chair of
the Over-the-Rhine Comprehensive Plan (OTRCP), as
the community representative rewriting OTR Historic
District (OTRHD) guidelines, and later, as the
president of the OTR Community Council (OTRCC),
the appellant has encouraged our community to trust
what’s written in the plan, guidelines will be honored.
Then, after our plan/guidelines were enacted, our
mayor eliminated the city planning department, and
created a separate nonprofit entity to manage
community development projects. New staff and board
members installed after the newest mayor’s election
haven’t honored the plan or guidelines, focusing on
maximizing an engineered gentrification approach to
revitalization. Linda, Vermeil, Pam and Katrina,
long-time African American residents, are no longer

13

OTR homeowners. Owning the Realty, a nonprofit to
assist residents becoming owners, shut down.
Building inspectors have ramped up violations. The
change in staffing and board members has resulted in
approvals being ignored, guidelines disregarded.
Traditional preservation practice resulted in many
lower income African American neighborhoods being
transformed into affluent, whiter enclaves, displacing
residents as they lost wealth-building opportunities.
Supported by the National Trust for Historic
Preservation (NTHP), reformers created a modern,
inclusive preservation approach, sensitive to existing
diversity/identity with guidelines written to reflect
community identified social goals.
With historic districting, cities legislate enormous
centralized power to an Urban Conservator (UC), and
a historic board, its members ideally reflecting the
citizens who exist in the neighborhood to be
14

transformed. How staff and board carry out their
duties is rarely scrutinized or challenged, especially
while the neighborhood is attracting new investments.
With the history of zoning, we find repeated instances
of local government-led atrocities suffered by the poor,
mostly African Americans, who had made these places
their communities. As the U.S. Supreme Court has
ruled against local zoning efforts, due to violations of
property and civil rights, some cities have found new
ways to carry out the same racial displacement
objectives, either with new initiatives or by simply
abusing their power. After F.D.R. appointed white
supremacist Senator Bilbo the unofficial mayor of
D.C., he pressured African Americans, some of whom
had moved there after emancipation, to relocate from
the Foggy Bottom and Georgetown neighborhoods.
Homes were improved, repopulated with more
affluent, whiter residents. In recent times, the same

15

phenomenon has repeatedly taken place under the
guise of historic districting. Arguably the worse
tragedy has been repeating multigenerational loss of
wealth-building opportunities for displaced, mostly
African Americans. Some cities, including Cincinnati,
now use traditional preservation practice, generating
more impressive tax revenues and contributions
accompanying an UC engineered gentrification.
“This country’s history of zoning has been one of
distortion and deception, attempting to displace and
segregate

along

racial

and

economic

lines

populations, often in clear violation of the Supreme
Court’s 1917 Buchanan v Warley decision.. African
Americans were unconstitutionally denied the means
and

the

right

to

integration

in

middle-class

neighborhoods, and because this denial was state

16

sponsored, the nation is obligated to remedy it”7..
“While not as overt, contemporary exclusionary
zoning

contributes

to

the

same

patterns

of

segregation as pre-Buchanan v. Warley policies.
Because racial minorities are much more likely to
have lower incomes, class-based discrimination tends
to have a disparate impact on them, paralleling the
racial discrimination of the past., in June 2015, the
U.S.

Supreme

Court upheld the legitimacy of

disparate impact complaints., asserted that the
removal of exclusionary zoning lay at the heartland of
the Court’s decision.”8 “That case against historic

7 Color of Law, Richard Rothstein, Liveright, 2017, sic passim
8 Understanding Exclusionary Zoning and Its Impact on
Concentrated Poverty, Elliot Anne Rigsby, 2016
17

districting is similar to the case against protectionist..
zoning anywhere”9.10
History: In 2001, the appellant asked to assist
revising the proposed OTRHD guidelines written by
staff without community input. City Council, withheld
their approval until revisions were completed. I met
with staff, along with highly regarded local
preservationists. Changes included inserting the word
‘original’ into ‘not altering original openings’ to limit
the scope of review; other sentences were added, such
as allowing flexibility with adaptive re-use due to the
nature of the building. These changes related to the
idea that the boundaries included mostly tenement
buildings, but also a number of industrial sites, mine

9 The Color of Wealth in the Nation’s Capital: Urban Institute,
Duke Univ, New School, Insight Center, Nov 2016
10 Notice of Appeal, Supreme Court of Ohio, C-180616, 1/31/20,
pp.1-14.

18

being one of those, and not wanting to adversely affect
industrial re-use potential. My project had started
over a year before historic districting, with gap
financing approved by City Council. The OTRCP
listed my project as one of the ‘change agent’
developments.
Unfortunately, many of the participating
stakeholders had criticisms of the way staff
had been handling community redevelopment,
and, as co-chair, I made sure staff knew about
these concerns. The stakeholders recognized
the specialness of OTR as a continuing working
class community, as well as its inventory of
buildings escaping urban renewal demolitions
of the 60’s, due in large part to collaborative
activism. Diverse, passionate stakeholders
wanted this update of our neighborhood plan to
get it right, which meant staff needed to evolve
19

too. Staffs response was to remove my
development from being listed in the updated
plan, and take away my gap financing. Then,
the mayor replaced the head of Community
Development, eliminated the Planning
Department, and created 3CDC to handle
community development projects. My
development progress was delayed for a year
while staff figured out how to implement new
historic requirements. The loss of gap financing
caused me to switch to a pay-as-you-go, phased
approach, which the HCB approved during a
Preliminary Design Review (PDR). PDR’s are
recommended by cities and the U.S. Secretary
of Interior (SOI), setting out the overall
development plan, and in my case, included an
administrative process for subsequent phased
approvals over an anticipated long period. A

20

future final phase permit is still planned.
I was asked to serve as President of the
OTRCC as we struggled with, yet approved: the
expansion of Washington Park, early 3CDC
and affordable clustered housing projects,
different approaches to address the violence,
open air drug dealing and prostitution, and
transportation initiatives balancing community
and commuter priorities. With support from
Cincinnati Preservation Association and the
OTR Foundation, I wrote the application to the
NTHP winning OTR designation as one of the
nation’s most endangered sites, noting threats
to residents as well as buildings. City staff
didn’t like the designation because of its
implication they hadn’t done their jobs well, so
the wording was changed to only reflect a
desire to reduce the number of demolitions.

21

To address the overwhelming violence,
lawlessness and grief touching every OTR
multi-generational family, I led a year-long
community-wide effort to win a Weed and Seed
designation from the Department of Justice.
Unfortunately, our application was quietly
killed. Ironically, OTR was then named
America’s most dangerous neighborhood.
I received permit approvals for phased work in
2004, 2006, and 2010, based on the 2003
revised PDR. In 2012, I received occupancy on
half of the site, and, at a city inspector’s urging,
started preparing a permit for the remaining
half. My architect refers to this project as his
most complex ever undertaken, including an
alternative compliance analysis, which
provides for significant interior historic
character preservation. Similar to ‘form follows

22

function’, the architecture of industrial sites
change as their functions evolve. Typically, an
industrial building includes alterations Over
decades with different uses. It is challenge to
apply historic restrictions, because industrial
sites are continually changing, ‘making
history’. Also, industrial buildings typically
contain large open floor plates, not easily
adapted to new uses without exterior changes,
due to different code requirements for re-use as
dwelling units. Adaptive re-use presents
greater challenges than tenement buildings
which continue the same use, evidenced by
comparative progress redeveloping warehouses.
I’ve pursued this development as a role model
for local workforce inclusion, involving long­
term mentoring, apprenticeships (assisted by
the Cincinnati Empowerment Corporation, and

23

Free Store Foodbank); and share equity with
neighborhood at-risk youth and the hard-tohire. These efforts go a long way changing the
long-term plight with generational failures in
low income areas, rather than, say, forcing the
poor to move from a deeply rooted community
to an unfamiliar one, losing wealth-building
opportunities along the way. The current UC
sees my approach as providing a self-inflicted
wound, arguing I should be focusing on
providing higher income uses like expensive
condos being built on other blocks. In addition
to the UC’s denial to approve a previously
approved permit based on the PDR, in order to
complete unfinished work incorporating two
new doors, the Director of Buildings also
pressed to reverse approval for the use of a
spiral staircase, even though it is allowed by

24

the Ohio Building Code, and was previously
approved by the Plan Examiner, with his
oversight, from 5/5/17 to 10/30/17.
Argument: The UC refers to the SOI
Standards for Rehabilitation Guidelines,
stating: “The Guidelines about not changing
building openings is a basic guideline that all
historic buildings, regardless of use (i.e.
residential, industrial, commercial) shall
follow.”11 Yet, the SOI Guidelines for
Rehabilitating Historic Buildings actually says:

"i

The Guidelines assist in applying the Standards to
rehabilitation projects in general; consequently, they
are not meant to give case-specific advice.. For

11 Submission, Application for Certificate of Appropriateness
Historic Conservation Board Public Hearing Staff Report,
10/9/17, p.70.
25

example, they cannot tell a building owner which
features of an historic building are important in
defining the historic character., or which features
could be altered, if necessary, for a new use.
Also, the Standards aren’t applicable since they are
only for those projects receiving historic tax credits.
Fundamental Character: The UC claims there is a
fundamental character standard against alterations
that overrule local guidelines, to which I respond:
a. Guidelines are unique to each historic district, and
so, what is considered fundamental character would
relate to the substance of those guidelines. To
accommodate industrial sites, we added: the word
“original” to “don’t alter original openings” to limit the
scope of review, and ‘flexibility with adaptive reuse’.
b. The reasons for treating industrial sites differently
relate to how their identity is connected to their

26

continually evolving uses, with building alterations,
additions over time as they adapt to new uses.
Redevelopment of industrial sites is also typically a
greater challenge meeting the differences in code
requirements with changes of use; many of our
district’s industrial inventory continue to struggle.
c. Industrial sites offer our best opportunities for
creating apprenticeships, entrepreneurship/workforce
development, equity building investments, public
private collaborations, and supportive incubators.
Including these programs with neighborhood
revitalization was a fundamental goal of the OTRCP.
d. My project provides an example of re-use meeting
these goals, creating: mentoring, apprenticeships,
entrepreneurships and long-term equity sharing. No
other similar project exists in OTR, and I’m only able
to continue growing if this permit is approved.

27

My permit reflects the fundamental character of the
uniquely written guidelines, and the fundamental
character of the OTRCP.12 The OTRHD guidelines
say: “By their nature adaptively reused buildings may
require more flexible and creative approaches” and
“don’t alter or fill in original openings”13. The
OTR Chamber and Cincinnati Preservation
Association were participants and wrote letters of
support, noting the guidelines were improved,
increasing design flexibility and offering special
treatment for warehouse loft conversions14. After the

12 Walter Reinhaus Responds to the Brief of Appellees, Common
Pleas, 6/15/18.
13 Submission, Applicant’s Appeal to the Zoning Board of
Appeals, 11/28/17, p.vii.
14 Submission, Comments in response to the 9/25/17 HCO Staff
Report, Item 5, pub 9/20/17, p.64 and Comments in Response to
10/9/17 HCB Hearing, p.84.
28

historic district was created, the HGB approved the
appellant’s new openings, as part of their approval of
an overall plan for the appellant’s project with the
PDR, a process recommended by the SOI, which
writes: “Careful case-by-case decision-making is best
accomplished by seeking assistance from qualified
historic preservation professionals in the planning
stage of the project.” The appellant gained approval
for his PDR in 2003, which included an overall design,
a phased development approach implemented over a
long period of time, and a process for future approvals
by reference to the approved PDR.15
Heavy Burden: A heavy burden is not only born by
the Appellant, but also shared by the boards
responsible for facilitating a public process following

15 Submission, Application for a Certificate of Appropriateness,
pp.3-5, and Comments in Response to the 9/25/17 HCO Staff
Report, pp.49-50.
29

their written policies, including those as basic as
swearing in those giving testimony (Zoning Board of
Appeals (ZBA) failed); allowing respondents their
proscribed time to answer board questions (HCB
failed); inviting others to testify in support (HCB
failed); board members refusing to read submitted
documentation (HCB failed); the UC’s repeated
failures to correct errors in the staff reports; failing to
utilize previous HCB administrative clarifications;
and failing to correctly reference guidelines.
Comparing cases cited by the City, this case includes
a list of troubling process issues, as well as a lack of
deference for the previous HCB determination
approving the Preliminary Design. The city’s cited
cases contain no comparable list of failed processes.
We don’t know what other procedural rules were
violated by the ZBA, since they chose to conduct
almost their entire meeting in private. If only they
30

had chosen to deliberate in public, we might be able to
put their process failure in perspective.
The City references RC2506.04, which requires the
court to examine the ‘substantial, reliable and
probative evidence on the whole record’., must give
consideration to the entire record.. 16
Shouldn’t the previous HCB approval of the PDR,
including revisions, and subsequent permits issued
based on that PDR, be included, in order to have
examined the whole record? The current HCB
members didn’t agree they were relevant:
Applicant: ..the Historic Conservation Board has
already approved this and —
HCB member Mr. Siemer: Yeah, but those certificates
expired because you didn’t do the work.

16 North Eastern Reporter, 2d, 613, 58 OH ST 2d, p.207.
31

Applicant: I disagree.
Mr. Siemer: Well, regardless, I mean, they have, and it
is. 17
Chairman Voss: ..the history, at this point, is not
relevant to where we are.. 18
HCB member Mr. Zielasko: ..I’m not interested,
personally, in reviewing another 50 pages of history..
all the history in this is irrelevant. 19
Given the HCB’s refusal to consider the whole record,
shouldn’t their conclusions fail to have met the
requirements of RC2506.04? The UC bases her
position on her feeling of inappropriateness.
The court said when: “the evidence., consists of
subjective judgments.. The inherent unreliability of

17 Submission, 11/6/17 HCB Hearing transcript, p.145
18 Ibid, p.149.
19 Ibid, pp.150-151.
32

such evidence should be apparent.”20
The City also emphasized judicial review is unusually
deferential; but shouldn’t whole reviews by this Court,
as well as by the HCB and ZBA, also be deferential to
the previous determination by the HCB, in regards to
their previous approval of the PDR?
A City cited case states: “..board’s decision on such
matters is presumed to be valid, and the burden is
upon the party contesting the board’s determination
to prove otherwise” ,21 Applying to this case, the heavy
burden should fall on the board members, in choosing
to dismiss the previous HCB’s approval of the PDR.
Variance by Staff: The same deference should apply
to varying from the guidelines as written; variances
should be similarly very limited and unusually
deferential, presuming the guidelines as written “to

20 North Eastern Reporter, 2d, 613, 58 OH ST 2d, p.208.
21128 OH Appellate Reports 3d, p.636.

33

be valid, and the burden is upon the party contesting..
to prove otherwise” 22
Within a similar case cited by the City, when a
proposed variance thwarted a land use plan, it: “.. was
asking for a zone change rather that a variance and
that should be required to go through the process
required of the former.23 Also within a citation by the
City was a case of: “.. abuse of discretion.. In what
should have been a relatively straightforward process,
for several reasons, this case has become a procedural
quagmire.. The failure to authorize the ..use was..
legislative in nature and, therefore, an improper
exercise of., power.24

22 Ibid
23 128 OH Appellate Reports 3d, p.637.
24 North Eastern Reporter 2d, 613, pp.583-584.

34

So, if the UG wishes to vary the guidelines, the City
should consider pursuing revisions through a Council
approved process. Given all the uncorrected errors in
the UC’s Staff Report, the refusals of consideration by
the current HCB members, and the failed rules of
order by the HCB and ZBA, is deference due?
Compelling Issues: This case presents two critical
issues (A&B) for the future of historic preservation
under historic districting in Ohio and the United
States, a possible constitutional issue (C), and two
troubling issues (D&E) relating to the court of appeals
reasonableness of the logic applied to their ruling: (A)
whether previous decisions by historic conservation
boards are legally binding and due deference; (B)
whether the plain meaning of a guideline, created
with community participation, approved by city
council, can be judicially changed, with a radically
expanded scope, to serve the goal of establishing a
35

universal standard, as opposed to a local standard; (C)
whether the harm caused by these government abuses
constitutes a constitutional violation for their adverse
impact; (D) whether acknowledged errors can be
nevertheless dismissed in whole without specificity,
thereby removing the possibility of a conclusion of
preponderance of error; and (E) whether a conclusion
can be made with only the benefit of a conclusory
opinion, as the Court of Appeals seemed to decide
regarding the use of a spiral staircase.
A. Lack of deference for previous decisions: The
decision of the court of appeals sets a precedent that
excludes the continuing validity of decisions by
governmental boards, namely, HCB’s, with changes in
membership. Under this new precedent, board
decisions would cease to be binding whenever the
membership of a board changes, resulting in a chaotic
and uncertain development future, and possibly
36

expanding to upset any other time-honored board
action throughout government, business and the
country. The decision of the court of appeals also sets
a precedent that excludes an entire subject matter—
PDR’s — that the SOI recommends in the planning
stage of a project, so that construction permits can be
pursued knowing what will be approved in advance,
based on what was approved with the PDR.
B. Radically changing the plain meaning and scope of
a guideline: The decision of the court of appeals sets a
precedent that ignores the recommendations of the
SOI regarding only applying their national standards
to tax credit projects and not to specific local projects.
The appellant, like many industrial building
redevelopments, didn’t find the credits a worthwhile
incentive. The unique OTRHD guidelines were
composed with community participation, approved by
City Council only after the community input was
37

added, supported for their special allowances with
industrial buildings by the OTR Chamber, celebrated
for their flexibility by the Cincinnati Preservation
Association. The guideline of interest with this case is
representative of this liberalized allowance. With
preservationists, the word ‘original’ and ‘scope of
review’ have significant, specific meanings.
C. Constitutional issue by resulting adverse impact:
The decision of the court of appeals also sets a
precedent allowing the authority that comes with
historic districting to be misused, continuing a sordid
history of discrimination against vulnerable residents
of color of modest means. Other zoning approaches
have been successfully challenged; now with this case,
abuse of historic districting may be confronted.
The implications of the decision of the Court of
Appeals touch the lives of tens of thousands of Ohio
residents living in older neighborhoods that are either
38

historic districts or potentially future historic
districts, as well as hundreds of thousands nation­
wide who may also be subject to adverse impacts.
The public interest is affected if the plain meaning of
a guideline adopted by the City Council can be altered
and expanded in scope, in an attempt to create a
universal guideline, subverting the intent that
development be guided by a unique set of guidelines.
The judgment of the Court of Appeals has great
significance also because it undermines the trust,
cooperation and good will that has existed between
residents, investors and local government genuinely
committed to saving and rehabilitating buildings as
well as saving their community identities in part
defined by their existing residents. Neither
government nor the people can revitalize cities on
their own. What makes private/public partnerships
work must be respected, including deference for
39

previous board decisions, and for the unique
guidelines composed with community input.
Apart from these governmental considerations, which
make the case one of great public interest, the
decision of the court of appeals has broad general
significance. The history of zoning has adversely
impacted minorities of modest means by both unfair
regulations and by abuse of authority, continuing
even after US Supreme Court rulings. Historic
districting centralizes authority, allowing for easier
avenues of abuse by staff and boards appointed by
mayors, with few opportunities for accountability.
History provides examples where traditional
preservation practice within city bureaucracies
misused this authority to engineer gentrification of
low income communities, displacing and denying
wealth-building opportunities to mostly existing
resident populations of color. This followed a history

40

with cities forcing residents to move or stay away
from living in neighborhoods based on race, and then,
after the US Supreme Court ruled against it, by class,
which fostered the same result, because most
residents of color in inner city neighborhoods were not
affluent nor qualified for financing.
The Supreme Court has more recently ruled about
adverse impact, but hasn’t considered how historic
districting provides the tools that are sometimes
misused to repeat engineered gentrification.
D. Dismissal of errors without specificity: The
judgment of the Court of Appeals also sets a precedent
that would exclude preponderance of errors, by
acknowledging errors but then failing to correct them
or even specify them, but simply claiming they are all
insignificant and harmless. Any acknowledged error
must be taken seriously enough to specifically name
it, before writing it off, especially with a case whose

41

claim rests on a charge of a preponderance of error.
E. Conclusion from only a conclusory opinion: The
spiral staircase meets the OTR Guidelines stated
preference for vertical features; is an industrial site
feature; and is very similar to a nearby, more visible
one, recently approved by the HCB. The judges
mention the proposed use of a spiral staircase, but
only note the importance of context, which supports
the appropriateness of the appellant’s plan.
Reviewing the Record
F. It is not about an expired permit; it is about
the approved, un-expiring PDR. Where is
deference for the previous HCB approval of the
PDR, which included door placement
mitigation, and a phased permit approach?
“Reinhaus failed to present authority to support his
position that prior action by the HCB related to an
expired building permit was determinative with
42

respect to this current application for the proposed
modifications” 25
The record shows this has been addressed, it wasn’t
related to an expired building permit, as the judge
asserts, but to the approved PDR. In the record are
PDR drawings (showing the proposed new doors) and
excerpts from previous HCB approvals relating to the
approved PDR, which has no expiration date.
the common pleas court was required to give due
deference., and was prohibited from blatantly
substituting its judgment, especially in areas of
administrative expertise” 26
Where is the due deference for the original HCB PDR
approvals, further validated as those approvals were

25 Judgment Entry, First District Court of Appeals, Hamilton
County, Ohio, 12/20/19 pp.2-3.
26 Ibid, p.2.

43

applied to permits'? Where is the caution exercised
before dismissing the previous HCB’s deliberative,
detailed approval, then substituting the new UC’s
sweeping declaration? The previous UC vs the new UC
reflects the difference in modern vs traditional
preservation practice, with the current UC stepping
back to practice the traditional, narrowed, engineered
gentrification focused approach.
“His argument was further undermined because the
proposed front facade changes would not be located in
a residential part” 27
As previously noted, the approved PDR describes a
phased project, with a final phase finishing the
conversion of planned residential spaces. The
approved phased approach has been accepted with
previous permits. Why is it ignored with this COA?

27 Ibid, p.3.
44

G. Bringing symmetry into it re-mitigates what
was approved by the PDR, exceeding the court’s
judicial scope.
“Moreover, the trial court found that the proposed
additional door openings on the front fagade would
alter the symmetry..” 28
Symmetrical openings are only mentioned in regards
to windows (not doors or openings in general) for noninstitutional buildings, and for new constructions (not
for rehabilitation of buildings).
H. Expanding the scope of the guideline
circumvents the good work of the community as
a co-author of the guidelines, and disregards the
city council’s role approving guidelines.
“.. and contravene the guideline directed to door and
window openings. This unambiguous guideline is not

28 Ibid
45

limited to merely restricting the altering of original
window openings” 29
Compare the OTRHD vs the Sohn Historic District on
this point; if the OTRHD guideline is not ambiguous,
as the judges state, then how can it be anything other
than what it says, which says only original openings?
Comparing the neighboring Sohn and OTR historic
district guidelines concerning openings:
Sohn: “Openings may never be altered, filled-in or
added. ”
OTR: “Don’t alter or fill-in original openings.”
Just as the judges must restrict the scope of judicial
review, so must they respect the guideline’s scope of
review concerning alterations of original openings. The
limitation of this guideline is due to the inclusion of

29 Ibid
46

the word “original”. When writing the guidelines, we
added this word to the phrase to intentionally reduce
the scope of concern for alterations so it would be
limited to original openings, as a compromise for
expanding the district boundaries to include industrial
buildings. Just because the current UC, the current
HCB, or a judge feels the scope of restrictions should
be enlarged, doesn’t change the meaning of what is
written, which embodies the will of the community, as
a partner composing the guidelines, which were only
then approved by City Council, with the approval of
greater flexibility for industrial buildings.
It is not reasonable that a judge wields authority to
change the plain meaning of a sentence.. In this case,
the judge is not claiming the meaning is ambiguous
and includes something more; for, the judge also states
the meaning is not ambiguous.

47

I. Claiming pro-tanto is unsupported ignores
evidence:

failed to support his conclusory claim of

a pro-tanto taking” 30
The record documents my project started a year before
historic designation, along with reasons why there is
an unavoidable significant loss, of viability, and of
devastating consequences for the shared equity loss to
mentees, with a denial to finish the doors.
J. Claiming unspecified errors are insignificant
ignores, shows bias against recognizing a
preponderance of error.
“the decision includes minor factual inaccuracies..”
They are clearly not minor, going to the basis of the
case, showing a preponderance of error, which is also
not a minor issue, but the basis of objection.

30 Ibid
48

those inaccuracies were not significant to the trial
court’s analysis” “..and were harmless”
Lacks specificity; some errors continued to be used to
support the judges decision, so, as the errors were the
basis of the opinion, are significant and meaningful.
“Consequently, we overrule the assignment of error..”
Overruling fails to confront, but perpetuates the bias.
“Our standard of review focuses on., a preponderance
of the evidence.. We cannot weigh the evidence” 31
Aren’t the judges weighing when they acknowledge
unspecified errors, some of which are used for the basis
of judgments, but then claim they are all insignificant,
denying an obvious conclusion of preponderance1?
K. Other continuing error, lack of conclusion.

31 Ibid
49

“The trial court also found that the context of the
proposed spiral staircase., was relevant to the
substantial-compliance review” 32
The appellant presented evidence of spirals being a
part of industrial sites, how they are vertical,
streamlined, in keeping with preferences expressed in
the guidelines. Also, the appellant included copies
from the neighbor’s approved permit drawings, noting
the similarities, with the recently installed spiral
around the corner, in design, scale, material, and
positioning. So how can the judge’s sentence be taken
as anything but supportive of the spiral staircase? The
opinion does not seem to support any other decision.
Conclusion: Finishing the openings and adding a
spiral staircase substantially conform with the HCB’s
previously approved PDR, as well as the OTRHD

32 Ibid
50

Guidelines; the court’s determination should be
overturned, the permit approved, and traditional
preservation practice banned due to its harmful
history. The appellant has detailed why the process
was flawed, with a staff defiance to correct errors,
provide public documents; board members who refuse
to consider history, refuse to follow rules of order, the
ZBA deliberating most of their case in private during
a public meeting. A conclusion based on a multitude of
uncorrected staff report errors, refused board
considerations, and procedural rule violations, is a
dubious one without discernable meaning, which
precludes concluding preponderance.
The evidence demonstrates finishing the openings
strictly adheres to the guidelines as written, so no
hardship is required. Also, the Plan Examiner
requires their completion as a condition of approval,
being unfinished work from a previous permit.
51

Denying openings completion also creates a pro-tanto
taking, since the project started before the OTRHD.
Continuing to withhold approval tragically debilitates
future project viability, and significantly reduces
equity for long term mentored existing residents Eric,
Tony, Ronnies, Josh, Tyrell, Rayshawn, Peanut, JJ,
Chris, a rare application of a key goal of the OTRCP.33
Respectfully submitted,

Walter Reinhaus. Appellant
24 West McMicken Av, Cincinnati OH 45202
513.241.3855, reinhaus@yahoo.com
APPENDIX: JUDGMENT TO BE REVIEWED

33 Final Comments Read in Court 7/2/18, Common Pleas,
A1801386, pp.1-4,5.
52

